APPENDIX A
Fischer v. State, Nos. 03-17-00025-CR,
03-17-00026-CR, 03-17-00027-CR
(Tex.App.—Austin, delivered December 28, 2018)

App. 1
2018 WL 6816822
Fischer v. State
Court of Appeals of Texas, Third District, Austin
December 28, 2018, Filed
NO. 03-17-00025-CR,
NO. 03-17-00026-CR, NO. 03-17-00027-CR
Counsel: For State: The Honorable Margaret M.
Moore, Travis County District Attorney, Austin, TX;
Ms. Rosa Theofanis, Assistant District Attorney, Travis
County, Texas, Austin, TX.
For Appellant: Mr. Keith S. Hampton, Austin, TX.
Judges: Before Chief Justice Rose, Justices Goodwin
and Field.
Opinion by: Jeff Rose
Opinion
MEMORANDUM OPINION
Charles Fischer appeals his convictions on multiple indictments for six counts of indecency with a
child by contact, four counts of sexual assault of a
child, and three counts of indecency with a child by exposure committed against D.W., J.G., and A.M. when
Fischer was their treating psychiatrist at Austin State
Hospital. See Tex. Penal Code § 21.11(a)(1), (2).1 After
1

Charges in three causes were consolidated for trial. In
cause number D-1-DC-12-900145, the jury convicted Fischer of
two counts of indecency with a child by contact and one count of

App. 2
a three-and-a-half week trial, the jury assessed
Fischer’s punishment at twenty years’ imprisonment
for each count of indecency with a child by sexual contact; twenty years’ imprisonment for each count of sexual assault of a child;2 and ten years’ imprisonment for
each count of indecency with a child by exposure, but
recommended suspension of the ten-year sentences
and placement on community supervision.3 The district court rendered judgments of conviction on the
jury’s verdicts.
In sixteen issues on appeal, Fischer contends that
the district court violated his constitutional rights to
an impartial jury, to counsel, and to effective assistance of counsel by preventing his attorney from asking the venire two questions: whether they could
maintain the presumption of innocence, and whether
they could consider probation, in light of a multiplicity
indecency with a child by exposure against D.W. In cause number
D-1-DC-12-900147, the jury convicted Fischer of two counts of indecency with a child by contact, one count of indecency with a
child by exposure, and four counts of sexual assault of a child
against J.G. In cause number D-1-DC-16-904072, the jury convicted Fischer of two counts of indecency with a child and one
count of one count of [sic] indecency with a child by exposure
against A.M.
2
In cause number D-1-DC-12-900147, involving the sexual
assault of a child offenses against J.G., count 3 was subsumed by
count 1, and count 5 was subsumed by count 4.
3
The district court ordered that the sentences in cause numbers D-1-DC-16-900145 and D-1-DC-16-904072 would run concurrently. But the court ordered that the sentences in cause number
D-1-DC-16-900147 would run consecutively to the sentences in
the other two causes.

App. 3
of accusations. Fischer also contends that the statute
concerning evidence of extraneous acts or offenses in
article 38.37 of the Texas Code of Criminal Procedure
is unconstitutional on its face and as applied to him,
that the district court abused its discretion by admitting extraneous evidence of sexual misconduct, and
that article 38.37 violates the Ex Post Facto Clause. We
will affirm the district court’s judgments of conviction.
BACKGROUND
The jury heard that Charles Fischer committed
the charged offenses against D.W., J.G., and A.M. when
Fischer was their treating psychiatrist at Austin State
Hospital. Fischer’s patients in the Child and Adolescent Psychiatric Services Unit were primarily adolescent boys with severe behavioral problems, intellectual
disabilities, mental illness, depression, pervasive developmental disorders, or a serious history of physical,
sexual, and mental abuse. In 2011, the Department of
Family and Protective Services investigated a sexual
abuse allegation made against Fischer. After the Department confirmed that allegation, the Austin Police
Department reexamined other allegations against
Fischer, eventually resulting in his charges for the offenses at issue here.4
During Fischer’s trial for the offenses against
D.W., J.G., and A.M., the jury heard testimony from
four additional victims, Z.L., W.C., B.R., and D.W.R.
4

Charges concerning a fourth victim, B.W., were dismissed
because B.W. refused to testify.

App. 4
The district court admitted evidence from those four
victims under article 38.37 of the Code of Criminal Procedure. At the conclusion of the trial, the jury convicted
Fischer of six counts of indecency with a child by contact, four counts of sexual assault of a child, and three
counts of indecency with a child by exposure and assessed punishment. The district court rendered judgments in accordance with the jury’s verdicts. Fischer
filed a motion for new trial that was overruled by operation of law. This appeal followed.
DISCUSSION
Issues 1-12: Voir dire questions as to presumption of innocence and community supervision
In his first twelve issues, Fischer contends that the
district court violated his constitutional rights to an
impartial jury, to counsel, and to effective assistance of
counsel by preventing his attorney from asking the venire two questions: whether they could maintain the
presumption of innocence, and whether they could consider the minimum sentence, in light of a multiplicity
of accusations.5 We review a trial court’s ruling limiting voir dire questioning for an abuse of discretion. Barajas v. State, 93 S.W.3d 36, 38 (Tex. Crim. App. 2002);
see Samaripas v. State, 454 S.W.3d 1, 5 (Tex. Crim. App.
2014) (“A trial court has broad discretion over the voir
dire process, including setting reasonable limits and
determining the propriety of a particular question.”).
5

The court split the 150-person panel into two groups of 75
for the sake of convenience.

App. 5
In this context, a trial court abuses its discretion only
when a proper question about a proper area of inquiry
is prohibited. Samaripas, 454 S.W.3d at 5. Further, the
Texas Court of Criminal Appeals has concluded that
even if a voir dire question is erroneously denied, no
harm results when the record reflects that counsel was
able to ask the venire a question that was “essentially
the same” as the denied question or that elicited the
same information that the denied question sought to
elicit. Woods v. State, 152 S.W.3d 105, 110 (Tex. Crim.
App. 2004); Rachal v. State, 917 S.W.2d 799, 815 (Tex.
Crim. App. 1996).
1. Presumption of innocence
Here, defense counsel proposed asking the venire
whether they could maintain the presumption of innocence given the many charges against him. After hearing the parties’ arguments, the court refused defense
counsel’s precise question but allowed him to ask other
questions that were nearly the same as counsel’s proposed question:
[Defense counsel]: Solely on the issue of presumption of innocence, I propose to inform the
jury of how many charges he’s charged with,
the title of charges, not go into the elements
or any facts of the charges, and then question
them in light of the fact that he is charged
with that many charges, can you still maintain the presumption of innocence.
....

App. 6
THE COURT: What if—here’s what I’m willing to do: Ask them about the presumption of
innocence, and without going into specifically
the number of counts, what if there [was]
more than one count, does that change your
view. Without discussing specifically the number of counts, but making it clear that the presumption applies, like you say, whether it’s
zero to a hundred counts. I mean, you can say
it applies if there’s more than—and if there’s
more than one count, without going specifically into the number of counts, but putting it
out there.
....
[Defense counsel]: Let me be very clear
about the question I propose. I propose to ask
the jurors, again, explain the law to them on
presumption of innocence, that the charging
instruments are not evidence that the fact
that a person has been indicted and charged
is not evidence of guilt. The law is they have
to maintain presumption of innocence. Even
though someone is indicted, that presumption
applies regardless of how many charges there
are in the indictment. In this case, there are—
I would list the charges by name only, not the
elements, no facts, and I would then ask the
jury, [“]In light of the fact that those charges
are against the defendant in this case, can you
still maintain the presumption of innocence?[”]
....

App. 7
THE COURT: I think that’s going to create
the impression there are more victims. I
mean, is there—would you not be okay by saying, [“]The presumption applies no matter
how many counts[”] and without asking for a
commitment question and just ask them if it
would change their view if there were numerous counts[?]
[Defense counsel]: I think I’m entitled to ask
the questions I just stated into the record.
THE COURT: I’ll allow you to ask the question I just stated.
During voir dire, defense counsel asked several
variations of the presumption question, including with
reference to “multiple offenses” and “multiple charges,”
as he had proposed:
• This is kind of a tough question, but, again, I
want to ask you to be honest about it. Frankly, it
scares me to death. The presumption of innocence
applies when a person is charged with one charge
in a trial or whether they’re charged with a hundred. And my fear is that if someone is charged
with more than one offense, that may affect the
presumption of innocence. And if it does, that’s
fine. There’s nothing wrong with that. It may be
human nature. But I want to hear your answers to
that. I’ll start down here. Number 1, if someone is
charged with more than one offense, do you feel
like because they’re charged with multiple offenses
that they may be guilty to some degree just because they’re charged with more than one?

App. 8
• Do you think if somebody is charged with more
than [one] offense, whether it’s two or a hundred,
that if you find out they are charged with more
than one, you might think they were guilty of
something just because they were charged—6
• Just the fact there are multiple charges, would
that affect the presumption of innocence for you?
• Can you separate out the charges and just
say if the person is accused of one or a hundred
charges, how would that affect your view of whether
he might be guilty just based on the charges?
• I just want to talk with you about—several of
you said, well, depends on the circumstances . . .
Can you think of circumstances where there could
be multiple charges, multiple victims, and be false
outcries?
• If a person is charged with multiple charges,
the presumption of innocence still applies. . . . But
what I’d like to know from you is, in a case where
there’s multiple charges, where the person is accused of—you know, you pick a number. Does that
affect your opinion of the presumption of innocence? Do you feel like if there’s multiple charges,
that person must have done something and therefore he may be guilty some what because he’s been
charged with multiple crimes?
On this record, Fischer has not shown harm from
the court’s ruling as to the presumption-of-innocence
question because defense counsel was able to ask
6

Defense counsel’s question was interrupted by a prospective juror responding, “No.”

App. 9
essentially the same question that he proposed. See
Woods, 152 S.W.3d at 110; Rachal, 917 S.W.2d at 815.
2. Consideration of probation
Defense counsel also proposed informing the prospective jurors that “in this case, the charges include
two counts of aggravated sexual assault of a child,
seven counts of indecency with a child by contact, five
counts of indecency with a child by exposure, and nine
counts of sexual assault of a child” and that they “ha[d]
the option of giving probation [i.e., community supervision] on each and every count.” He proposed asking
the venire “whether they could consider probation on
multiple counts of indecency” and “as the appropriate
punishment under some circumstances for all counts
in the indictment[s] that are joined for trial on the
case.” The court denied the request, stating that “the
venireman only needs to be willing to consider the full
range of punishment for the offenses committed” and
“committing a panelist to consider community supervision if they were to convict on multiple counts is improper and would be fact specific.”
The Court of Criminal Appeals has stated that a
prospective juror must be able to “consider the full
range of punishment for the offense generally, and not
for some specific manner and means of committing the
offense.” Johnson v. State, 982 S.W.2d 403, 406 (Tex.
Crim. App. 1998). The Court has further stated that
counsel “veers into impermissible commitment questions
when [counsel] attempts to commit a veniremember to

App. 10
consider the minimum sentence based on specific evidentiary facts.” Cardenas v. State, 325 S.W.3d 179, 184
(Tex. Crim. App. 2010); see Shot with Two Arrows v.
State, 64 S.W.3d 606, 607 (Tex. App.—Fort Worth 2001,
no pet.) (noting that juror “must only be able to consider the minimum sentence in an appropriate case,
not a fact specific hypothetical involving multiple convictions for separate offenses”).
Here, defense counsel proposed informing the prospective jurors of Fischer’s specific charges in this case
and then asking them whether they could consider probation as punishment on multiple counts of indecency
and on all counts of the indictments in the causes
joined for trial. By this question, counsel intended to
go beyond the minimum requirement of confirming
whether jurors could consider probation for a particular charged offense, and instead ask about a group of
separately indicted offenses in this specific case. See
Shot with Two Arrows, 64 S.W.3d at 608.
Further, we note that as to the most serious counts
Fischer faced—aggravated sexual assault of a child7—
defense counsel was not prevented from asking prospective jurors individually whether they could consider facts that would make probation appropriate:
The count of Aggravated Sexual Assault or
the charge of Aggravated Sexual Assault basically means a person intentionally or knowingly causes penetration of the anus of a child
by any means, and the child is younger than
7

The jury acquitted Fischer of these counts.

App. 11
14 years of age. I’m not doing—what was done
earlier is lumping a lot of stuff together. I’m
talking about these particular elements. Can
you conceive of a set of facts where you would
think probation would be appropriate for
these elements?
That question was asked after the venire had been
informed of the multiple counts against Fischer, and
the prospective jurors who responded that they could
not consider probation for those elements of aggravated sexual assault were not seated on the jury. See,
e.g., Alvarez v. State, No. 11-05-00100-CR, 2006 Tex.
App. LEXIS 2824, at *8 (Tex. App.—Eastland Apr. 6,
2006, no pet.) (mem. op., not designated for publication) (noting that even if trial court erred in permitting
commitment questions that included reference to victim’s age, defendant was not harmed where none of
panel members who said that they could not consider
probation served on jury). Moreover, those who were
seated on Fischer’s jury showed their ability to consider probation, despite having convicted him of multiple offenses against multiple victims, by ultimately
recommending probation for each of the counts of indecency with a child by exposure.
On this record, Fischer has not shown harm—i.e.,
a substantial and injurious effect or influence on the
jury’s verdict—from the court’s rulings on the specific
questions defense counsel proposed to ask the venire
as to the presumption of innocence and consideration
of probation in the context of multiple charges. See
Tex. R. App. P. 44.2(b); Woods, 152 S.W.3d at 109-10.

App. 12
Contrary to Fischer’s contention, the court did not
“categorical[ly] deny” defense counsel’s inquiries, and
Fischer has not shown that the court’s rulings violated
his constitutional rights to an impartial jury, to counsel, and to effective assistance of counsel. We overrule
Fischer’s first twelve issues.
Issues [sic] 13: Facial constitutionality of Texas
Code of Criminal Procedure art. 38.37
In his thirteenth issue, Fischer contends that
article 38.37 of the Code of Criminal Procedure pertaining to evidence of extraneous offenses is unconstitutional on its face because it violates constitutional
due-process protections. Fischer complains specifically
about section 2(b) of article 38.37, which applies to trials for certain sexual offenses—including indecency
with a child and sexual assault of a child as charged
here—and allows admission of evidence showing that
the defendant committed a separate sexual offense “for
any bearing the evidence has on relevant matters,” including the defendant’s character:
Notwithstanding Rules 404 and 405, Texas
Rules of Evidence, and subject to Section 2-a,
evidence that the defendant has committed
a separate offense described by Subsection
(a)(1) or (2) may be admitted in the trial of an
alleged offense described in Subsection (a)(1)
or (2) for any bearing the evidence has on relevant matters, including the character of the
defendant and acts performed in conformity
with the character of the defendant.

App. 13
Tex. Code Crim. Proc. art. 38.37, § 2(b); id. § 2(a)(1)(C)(D); Robisheaux v. State, 483 S.W.3d 205, 210 (Tex.
App.—Austin 2016, pet. ref ’d). Before that type of evidence may be introduced, article 38.37 requires the
trial judge to conduct a hearing outside the presence of
the jury to determine whether the evidence “will be
adequate to support a finding by the jury that the
defendant committed the separate offense beyond a
reasonable doubt.” Id. § 2-a. The State must give a defendant 30 days’ notice before trial of its intent to use
such extraneous-offense evidence in its case in chief.
Id. § 3.
“A party raising a facial challenge to the constitutionality of a statute must demonstrate that the
statute operates unconstitutionally in all of its applications.” State ex rel. Lykos v. Fine, 330 S.W.3d 904, 908
(Tex. Crim. App. 2011); see Estes v. State, 546 S.W.3d
691, 697-98 (Tex. Crim. App. 2018). “In a facial challenge to a statute’s constitutionality, courts consider
the statute only as it is written, rather than how it operates in practice.” Lykos, 330 S.W.3d at 908. However,
in Robisheaux v. State, we held that section 2(b) of article 38.37 was not shown to operate unconstitutionally
in all its applications, and we rejected the contention
that the statute denied defendants due process and
due course of law. 483 S.W.3d at 209, 213; see Burke v.
State, No. 04-16-00220-CR, 2017 Tex. App. LEXIS
4248, at *2-4 (Tex. App.—San Antonio May 10, 2017,
pet. ref ’ d) (mem. op., not designated for publication)
(applying Robisheaux to case transferred from this
Court); see also Waters v. State, No. 02-17-00368-CR,

App. 14
2018 Tex. App. LEXIS 10304, at *4 (Tex. App.—Fort
Worth Dec. 13, 2018, no pet. h.) (mem. op., not designated for publication) (noting that court’s previous rejection of facial challenge to constitutionality of article
38.37 alleging due process and fair trial violations). Accordingly, we overrule Fischer’s thirteenth issue.
Issues 14-15: Constitutionality of article 38.37 as
applied and admission of extraneous evidence
In his fourteenth and fifteenth issues, Fischer contends that article 38.37 of the Code of Criminal Procedure is unconstitutional as applied to him and that the
district court abused its discretion by admitting extraneous evidence of sexual misconduct involving Z.L.,
W.C., B.R., and D.W.R. Fischer states that article 38.37
has withstood constitutional challenges because in
many cases there is no evidence of the offense besides
the child’s accusation, but in his view, that concern is
not applicable here because the jury was presented
with multiple indictments of child sexual abuse. Under
these circumstances, Fischer contends that admission
of the extraneous evidence of sexual misconduct was
unfairly prejudicial, violating his constitutional right
to due process and his right to a fair trial.
1. As applied challenge to article 38.37
“[I]n an as-applied challenge, the claimant ‘concedes the general constitutionality of the statute, but
asserts that the statute is unconstitutional as applied
to his particular facts and circumstances.’ ” Estes, 546

App. 15
S.W.3d at 698 (quoting Lykos, 330 S.W.3d at 910). Because a statute may be valid as applied to one set of
facts but invalid as applied to another set of facts, a
claimant must show that, in its operation, the challenged statute was unconstitutionally applied to him.
Lykos, 330 S.W.3d at 910. Our review of a statute’s constitutionality begins with the presumption that the
statute is valid and that the Legislature acted reasonably by enacting it. Faust v. State, 491 S.W.3d 733, 74344 (Tex. Crim. App. 2015); see Estes, 546 S.W.3d at 698.
Fischer contends that the two aspects of article
38.37 designed to provide him with due process—Rule
403 and the trial court’s sufficiency review—“were
worthless” here and did not protect him from an unfair
trial. He points out that “Rule 403 excluded none of the
extraneous cases against [him]” and says that their cumulative effect was to weaken the State’s burden of
proof as to the allegations in the indictment. However,
Fischer does not dispute that the procedural protections in article 38.37—pretrial notice of intent to introduce an extraneous sexual offense and a hearing on the
evidentiary sufficiency of such extraneous offense—
were followed before any evidence of extraneous conduct was admitted and that the district court complied
with Rule 403. As the State notes, the mere fact that
the application of Rule 403 did not result in the exclusion of any extraneous evidence does not show
that Fischer’s due-process rights were violated. We
conclude that Fischer failed to meet his burden of establishing that the statute operated unconstitutionally

App. 16
as applied to his particular set of facts and circumstances. See Lykos, 330 S.W.3d at 910.
2. Rule 403 balancing
Fischer further contends that the district court
abused its discretion by admitting the “revolting” extraneous-conduct evidence offered at trial over his
Rule 403 objections. As we have noted, article 38.37
provides that evidence of separate sexual offenses, besides those for which the defendant is being tried, may
be admissible character-conformity evidence. See Tex.
Code Crim. Proc. art. 38.37, § 2(b). However, even extraneous-offense evidence admissible under article
38.37 may be excluded under Texas Rule of Evidence
403. See Robisheaux, 483 S.W.3d at 212 (noting that
article 38.37 section 2(b) allows admission of separate
sexual offense evidence “[n]otwithstanding Rules 404
and 405” but not excluding Rule 403). Rule 403 provides that even relevant evidence may be excluded if
its probative value is substantially outweighed by the
danger of unfair prejudice, confusion of the issues, or
misleading the jury; by considerations of undue delay;
or by needless presentation of cumulative evidence. Id.
When conducting a Rule 403 analysis, the trial court
must balance: (1) the inherent probative force of the
proffered item of evidence along with (2) the proponent’s need for that evidence against (3) any tendency
of the evidence to suggest decision on an improper basis, (4) any tendency of the evidence to confuse or distract the jury from the main issues, (5) any tendency of
the evidence to be given undue weight by a jury that

App. 17
has not been equipped to evaluate the probative force
of the evidence, and (6) the likelihood that presentation of the evidence will consume an inordinate
amount of time or merely repeat evidence already admitted. Gigliobianco v. State, 210 S.W.3d 637, 641-42
(Tex. Crim. App. 2006). These factors may blend together in practice. Id. at 642.
We review a trial court’s decision to admit or exclude evidence, as well as its decision as to whether
the probative value of evidence was substantially outweighed by the danger of unfair prejudice, under an
abuse of discretion standard. Gonzalez v. State, 544
S.W.3d 363, 370 (Tex. Crim. App. 2018). The trial court
does not abuse its discretion unless its determination
lies outside the zone of reasonable disagreement, and
we may not substitute our own decision for that of the
trial court. Id.; see United States v. Fields, 483 F.3d 313,
354 (5th Cir. 2007) (noting that trial courts are afforded “especially high level of deference” for Rule 403
determinations); Robisheaux, 483 S.W.3d at 218 (citing
Fields).
The State correctly notes that as to the extraneous
acts involving Z.L., Fischer did not raise an objection
seeking to exclude Z.L.’s testimony on Rule 403 or on
due-process grounds and has thus failed to preserve
his complaint as to the admission of extraneous acts
involving Z.L. See Tex. R. App. P. 33.1(a). As to the other
three individuals, W.C., B.R., and D.W.R., the extraneous-conduct evidence admitted at trial did not deprive
Fischer of the right to be convicted only upon proof
beyond a reasonable doubt of every fact necessary to

App. 18
constitute the offenses he was charged with committing, and the court could have reasonably concluded
that the evidence of extraneous acts in this case was
not unfairly prejudicial.
The first three factors the court had to consider in
its Rule 403 balancing were the inherent probative
force of the proffered evidence, the proponent’s need for
that evidence, and any tendency of the evidence to suggest decision on an improper basis. The record shows
that the probative force of the evidence was strong,
that the State needed the evidence to address attempts
to undermine the credibility of the victims who were
Fischer’s institutionalized patients, and the tendency
of the evidence to suggest decision on an improper basis was no more so than in other prosecutions involving
child sexual abuse. Specifically, the jury heard evidence that:
• when D.W. was fifteen, Fischer masturbated in
front of him and stimulated D.W.’s penis;
• when J.G. was fourteen, Fischer masturbated
in front of him, had J.G. perform oral sex on
Fischer, and touched J.G.’s penis; and
• when A.M. was between twelve and fourteen,
Fischer masturbated in front of him, stroked
A.M.’s penis, forced A.M. to touch Fischer’s penis,
and anally penetrated A.M.
The extraneous-conduct evidence alleged similarly that:
• when Z.L. was sixteen, Fischer masturbated in
front of him, performed oral sex on him, had Z.L.

App. 19
perform oral sex on Fischer, and penetrated Z.L.’s
anus;
• when W.C. was fifteen or sixteen, Fischer exposed himself to W.C. and performed oral sex on
W.C.;
• when B.R. was eight or nine and until he was
sixteen, Fischer engaged in various forms of sexual contact with him, including touching B.R.’s penis, performing oral sex on B.R., and having B.R.
perform oral sex on Fischer; and
• when D.W.R. was fourteen, Fischer performed
oral sex on D.W.R., had D.W.R. penetrate him
anally, and had D.W.R. perform oral sex on Fischer.
Fischer’s conduct towards Z.L., W.C., B.R., and
D.W.R. bore strong similarity to the charged conduct
against D.W., J.G., and A.M. The victims were of similar ages, and in most instances, the circumstances of
the crime was nearly identical, involving institutionalized child victims who were abused by a physician at
that institution. Fischer acknowledges that W.C.’s and
D.W.R.’s evidence had probative value, but Fischer
challenges B.R.’s testimony because of its relative
dissimilarity and remoteness. However, as we noted
Robisheaux, remoteness is only one factor in determining the probative value of an offense. 483 S.W.3d at
219. Further, the rationale for discounting remote conduct is that people may change with the passage of
time. Gaytan v. State, 331 S.W.3d 218, 226 (Tex. App.—
Austin 2011, pet. denied). Here, the intervening extraneous acts indicate that Fischer has not changed over
time, rebutting the remoteness defense.

App. 20
The court in this case could have also reasonably
concluded that the State had a strong need for this
extraneous evidence because Fischer’s victims were
children with mental illness, who were particularly
vulnerable to attacks on their credibility. Defense
counsel raised the issue of their mental illnesses and
diagnoses during his opening statement, suggesting
that the allegations were not truthful. Moreover, although “sexually related bad acts and misconduct involving children are inherently inflammatory,” Pawlak
v. State, 420 S.W.3d 807, 811 (Tex. Crim. App. 2013),
“the plain language of Rule 403 does not allow a trial
court to exclude otherwise relevant evidence when that
evidence is merely prejudicial,” id., and the extraneous
conduct was no more “revolting” or fundamentally different in character than Fischer’s charged offenses.
Thus, these first three factors weighed in favor of the
admissibility of the evidence.
As to the next factors the court had to consider, we
note that the evidence as to the extraneous offenses
was not confusing or technical in nature and would not
tend to mislead the jury, which weighs in favor of admission of the evidence. See Gigliobianco, 210 S.W.3d
at 641 (noting that scientific evidence is of type that
“might mislead a jury that is not properly equipped to
judge the probative force of the evidence”). Further, because the quality of the extraneous-conduct evidence—
firsthand recollections of events of abuse from the victims—was identical to that of the charged offenses, the
district court could have reasonably concluded that the
jury was unlikely to give it undue weight.

App. 21
Finally, the court had to consider the likelihood
that presentation of the evidence would consume an
inordinate amount of time or merely repeat evidence
already admitted. As to this factor, the court could have
reasonably determined that the presentation of the extraneous conduct evidence from these witnesses would
be time-consuming to address but not merely duplicative or prolonged such that it impacted the “efficiency
of the trial proceeding.” Id.
Accordingly, we conclude that the district court
could have determined, within the zone of reasonable
disagreement, that the probative value of the evidence
of these separate sexual offenses was not substantially
outweighed by a danger of unfair prejudice under Rule
403. We overrule Fischer’s fourteenth and fifteenth issues.
Issue 16: Application of article 38.37 did not violate Ex Post Facto Clause
In his sixteenth and final issue, Fischer contends
that the application of article 38.37 of the Code of
Criminal Procedure violates the Ex Post Facto Clause
of the United States Constitution, which states that
“[n]o . . . ex post facto Law shall be passed.” U.S. Const.
art. I, § 9. The Ex Post Facto Clause prohibits:
• Every law that makes an action done before
the passing of the law—and which was innocent
when done—criminal, and punishes such action;
• Every law that aggravates a crime, or makes it
greater than it was, when committed;

App. 22
• Every law that changes the punishment, and
inflicts a greater punishment, than the law annexed to the crime when committed; and
• Every law that alters the legal rules of evidence, and receives less, or different, testimony,
than the law required at the time of the commission of the offence, in order to convict the offender.
Peugh v. United States, 569 U. S. 530, 538, 133 S. Ct.
2072, 186 L. Ed. 2d 84 (2013) (citing Calder v. Bull, 3
U.S. 386, 390, 1 L. Ed. 648, 3 Dall. 386 (1798)). Only the
last prohibition, addressing changes in evidentiary
rules to permit lesser or different evidence than legally
required at the time of the offense, is at issue here.
Fischer was charged with acts that occurred in
2001, 2002, and March 2003. Effective September 1,
2003, the Legislature amended article 38.37, allowing
the admission of evidence showing that the defendant
committed a separate sexual offense “for any bearing
the evidence has on relevant matters.” See Act of May
17, 2013, 83d Leg., R.S., ch. 387, §§ 1-3, 2013 Tex. Gen.
Laws 1167, 1167-68 (codified at Tex. Code Crim. Proc.
art. 38.37). Before that amendment, Fischer notes that
Texas Rule of Evidence 404(b) excluded evidence of a
defendant’s extraneous “bad acts” if it was offered to
prove propensity but allowed admission of such evidence for other purposes. See Tex. R. Evid. 404(b);
Montgomery v. State, 810 S.W.2d 372, 391 (Tex. Crim.
App. 1991) (op. on reh’g) (noting that for admission
of evidence under Rule 404(b), trial judge must conclude that evidence tends to serve some purpose other
than character conformity to make existence of fact of

App. 23
consequence more or less probable than it would be
without such evidence). Fischer states that Rule 404(b)
was designed to preclude the propensity rationale a
juror might undertake with knowledge of multiple
charges, and here, “the extraneous character evidence
simply proves that Appellant had a propensity for molesting boys.”
But as Fischer acknowledges, we rejected an ex
post facto challenge to these statutory provisions in
Robisheaux. See 483 S.W.3d at 215; see also Burke, 2017
Tex. App. LEXIS 4248, at *10 (following Robisheaux);
Ryder v. State, 514 S.W.3d 391, 402 (Tex. App.—Amarillo 2017, pet. ref ’ d) (rejecting ex post facto challenge
to article 38.37). In Robisheaux, we agreed with our sister courts’ conclusions that although article 38.37 enlarges the scope of admissible testimony, it makes no
change to the State’s burden of proof and no decrease
to the amount of evidence necessary to sustain a conviction and thus, does not violate ex post facto prohibitions. 483 S.W.3d at 215 (citing Baez v. State, 486
S.W.3d 592, 600 (Tex. App.—San Antonio 2015, pet.
ref ’d) cert. denied, 137 S. Ct. 303, 196 L. Ed. 2d 217,
2016 U.S. LEXIS 6202 (2016)). Other than the specific
dates of his offenses and his jury charge—which tracks
article 38.37—Fischer presents no facts distinguishing
his case from Robisheaux. Thus, he has not met his
burden of establishing the unconstitutionality of article 38.37 as applied to him here. See Estes, 546 S.W.3d
at 698; Lykos, 330 S.W.3d at 910. Additionally, we note
that because these indictments were joined for trial, the
jury would have heard evidence indicating Fischer’s

App. 24
pattern of sexual behavior—the referenced “propensity
for molesting boys”—even without the evidence of the
extraneous acts against W.C., B.R., and D.W.R. admitted under article 38.37.8 See Tex. R. App. P. 44.2(b). We
overrule Fischer’s sixteenth issue.
CONCLUSION
We affirm the district court’s judgments of conviction.
Jeff Rose, Chief Justice
Before Chief Justice Rose, Justices Goodwin and Field
Affirmed
Filed: December 28, 2018
Do Not Publish

8

We further note that the jury acquitted Fischer of one count
of sexual assault of a child, two counts of aggravated sexual assault of a child, and one count of indecency with a child by sexual
contact.

APPENDIX B
In Re Fischer, Nos. PD-0297, 0298, 0299-19
(Tex.Crim.App., delivered May 15, 2019)

App. 25
2019 Tex. Crim. App. LEXIS 455
In re Fischer
Court of Criminal Appeals of Texas
May 8, 2019, Decided
PD-0297-19
CHARLES FISCHER
Notice: DECISION WITHOUT PUBLISHED OPINION
Opinion
APPELLANT’S PETITION FOR DISCRETIONARY
REVIEW REFUSED.

App. 26
2019 Tex. Crim. App. LEXIS 449
In re Fischer
Court of Criminal Appeals of Texas
May 8, 2019, Decided
PD-0298-19
CHARLES FISCHER
Notice: DECISION WITHOUT PUBLISHED OPINION
Opinion
APPELLANT’S PETITION FOR DISCRETIONARY
REVIEW REFUSED.

App. 27
2019 Tex. Crim. App. LEXIS 482
In re Fischer
Court of Criminal Appeals of Texas
May 8, 2019, Decided
PD-0299-19
CHARLES FISCHER
Notice: DECISION WITHOUT PUBLISHED OPINION
Opinion
APPELLANT’S PETITION FOR DISCRETIONARY
REVIEW REFUSED.

